Report No. D-2009-025         November 26, 2008




    Obligation of Funds for Ship Maintenance
       and Repair at the U.S. Pacific Fleet
              Maintenance Activities
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.



Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector General
for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas and requests can
also be mailed to:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
BOA                           Basic Ordering Agreement
CBO                           Congressional Budget Office
DON                           Department of the Navy
FMR                           Financial Management Regulation
GAO                           Government Accountability Office
IDIQ                          Indefinite-Delivery/Indefinite-Quantity
IG                            Inspector General
JFMM                          Joint Fleet Maintenance Manual
MSMO                          Multi-Ship/Multi-Option
NAVSEA                        Naval Sea Systems Command
NMD                           Naval Maintenance Database
PACFLT                        U.S. Pacific Fleet
PHNSY & IMF                   Pearl Harbor Naval Shipyard and Intermediate Maintenance Facility
PSNS & IMF                    Puget Sound Naval Shipyard and Intermediate Maintenance Facility
RMC                           Regional Maintenance Center
STARS                         Standard Accounting and Reporting System
                                     IN~;PFr:TOR GENERAL
                                    DEPARTMENT OF DEFENSE
                                     400 ARMY NAVY DRIVE
                                ARLINGTON, VIRGINIA 22202-4704




                                                                              November 26, 2008

MEMORANDUM FOR ASSISTANT SECRETARY OF THE NAVY (FINANCIAL
                  MANAGEMENT AND COMPTROLLER)
              NAVAL INSPECTOR GENERAL
              COMMANDER, U.S. PACIFIC FLEET

SUBJECT: Report on Obligation of Funds for Ship Maintenance and Repair at the U.S. Pacific
         Fleet Maintenance Activities (Report No. D-2009-025)


     We are providing this report for information and use. We considered management
comments on a draft of this report when preparing the final report.

       Comments on the draft of this report conformed to the requirements of DoD
Directive 7650.3 and left no unresolved issues. Therefore, we do not require any additional
comments.

       We appreciate the courtesies extended to the staff. Please direct questions to Mr. Kenneth
B. VanHove at (216) 706-0074, extension 245 or Ms. Carrie A. Wade at (216) 706-0074,
extension 230. The team members are listed inside the back cover.




                                                Patricia A. Marsh, CPA
                                                Assistant Inspector General
                                                Defense Business Operations
                               Report No. D-2009-025 (Project No. D2007-D000FC-0151.001)
                                                   November 26, 2008

               Results in Brief: Obligation of Funds for Ship
               Maintenance and Repair at the U.S. Pacific
               Fleet Maintenance Activities

What We Did                                               What We Recommend
Our overall audit objective was to evaluate               The Assistant Secretary of the Navy (Financial
whether the Department of the Navy correctly              Management and Comptroller) should:
obligated funds for ship maintenance and repair.          • Issue guidance and implement a plan to
Specifically, we determined whether the                      monitor the obligation of funds at all
Department of the Navy obligated funds for ship              ship maintenance and repair activities to
maintenance and repair in accordance with                    ensure that the practices of obligating
applicable Federal and DoD regulations. This                 funds for award fees and growth,
report is the second in a series that addresses the          reservation, and overtime pools for ship
obligation of funds for ship maintenance and                 maintenance and repair contracts are
repair contracts. The first report focused on                discontinued and that the amounts for
ship maintenance and repair activities funded by             these items are deobligated on current
the Commander, U.S. Fleet Forces Command.                    contracts.
This report focuses on ship maintenance and               • Issue guidance and implement a plan at
repair activities funded by the Commander, U.S.              all ship maintenance and repair activities
Pacific Fleet. See Appendix A for a discussion               to monitor the obligation of funds at
of the scope and methodology and prior                       year-end on miscellaneous documents to
coverage related to the objective.                           ensure that only funds for specific,
                                                             definite needs are obligated and amounts
What We Found                                                for these items are deobligated on
The Commander, U.S. Pacific Fleet                            current miscellaneous documents.
maintenance activities inappropriately obligated
funds without identifying a specific, definite            The Commander, U.S. Pacific Fleet should
need for contingent liabilities on ship                   establish guidance that requires its activities
maintenance and repair contracts. Because of              to return unobligated Operation and
the inappropriate obligations, approximately              Maintenance funds at year-end in
$94.8 million of U.S. Pacific Fleet Operation             accordance with the Joint Fleet Maintenance
and Maintenance funds were not available for              Manual.
other ship maintenance and repair needs.
                                                          Client Comments and Our
In addition, Department of the Navy internal              Response
controls were not effective, and we found a
                                                          We received comments from the Assistant
material internal control weakness. Existing
                                                          Secretary of the Navy (Financial Management
Department of the Navy guidance does not
                                                          and Comptroller) and the Commander, U.S
prohibit the obligation of funds without a
                                                          Pacific Fleet agreeing with our
specific, definite need on ship maintenance and
                                                          recommendations.
repair contracts. See the Finding for further
details on the material internal control
weakness.

                                                      i
                       Report No. D-2009-025 (Project No. D2007-D000FC-0151.001)
                                           November 26, 2008


Recommendations Table
Client                       Recommendations        No Additional
                             Requiring Comment      Comments Required
Assistant Secretary of the                          1.a., 1.b.
Navy (Financial
Management and
Comptroller)

Commander, U.S Pacific                              2.
Fleet




                                         ii
Table of Contents

Results in Brief                                                       i

Introduction                                                           1

       Objectives                                                      1
       Background                                                      1

Finding. Obligation of Funds for Contingent Liabilities           5

       Client Actions                                                 10
       Client Comments on the Finding and our Response                10
       Recommendations, Client Comments, and Our Response             11



Appendix

       A. Scope and Methodology                                       13
             Review of Internal Controls                              14
                    Client Comments and Our Response                  14
             Prior Coverage                                           15


Client Comments

      Assistant Secretary of the Navy (Financial Management and
             Comptroller)                                             17
      Commander, U.S. Pacific Fleet                                   19
Introduction
Objectives
Our overall audit objective was to evaluate whether the Department of the Navy (DON)
correctly obligated funds for ship maintenance and repair. Specifically, we determined
whether the DON obligated funds for ship maintenance and repair in accordance with
applicable Federal and DoD regulations. See Appendix A for a discussion of the scope
and methodology and prior coverage related to the objective.


Background
Each fiscal year, the DON receives Operation and Maintenance funding for ship
maintenance and repair. Operation and Maintenance funds are available for obligation
for one fiscal year. If funds are not obligated within that period, they are generally not
available for obligation. For FY 2007, the DON received approximately $4.2 billion in
Operation and Maintenance funds for ship maintenance and repair. The Assistant
Secretary of the Navy (Financial Management and Comptroller) provides the Operation
and Maintenance funds to the Commander, U.S. Fleet Forces Command; the
Commander, U.S. Pacific Fleet (PACFLT); and the Commander, Naval Sea Systems
Command (NAVSEA). The Commander, PACFLT is responsible for programming and
budgeting resources for ship maintenance and repair at:

               •   Pearl Harbor Naval Shipyard and Intermediate Maintenance Facility
                   (PHNSY & IMF), Pearl Harbor, Hawaii;

               •   Puget Sound Naval Shipyard and Intermediate Maintenance Facility
                   (PSNS & IMF), Bremerton, Washington;

               •   Southwest Regional Maintenance Center (RMC), San Diego, California;
                   and

               •   U.S. Naval Ship Repair Facility, Yokosuka, Japan.1

This report is the second in a series addressing whether the DON has obligated funds for
ship maintenance and repair in accordance with applicable Federal and DoD regulations.
This report discusses the business practices used to obligate funds for ship maintenance and
repair projects at the three U.S.-based PACFLT maintenance activities. The three
maintenance activities use private contractors to complete ship maintenance and repair
projects. The office of the Commander, Regional Maintenance Centers in Norfolk,

1
    NAVSEA did not report any Multi-Ship/Multi-Option contracts, Indefinite-Delivery/Indefinite-
    Quantity contracts, or Basic Ordering Agreements located at the U.S. Naval Ship Repair Facility
    in Japan.




                                                      1
Virginia, was established on October 1, 2007, to lead the RMCs and related maintenance
activities in developing and supporting standardized maintenance processes.


Funds Authorization and Accounting Systems
The DON uses the Program Budget and Information System and the Standard
Accounting and Reporting System (STARS) automated financial systems to account for
ship maintenance and repair funds. Each quarter, the DON uses the Program Budget and
Information System to transfer budget authority2 for ship maintenance and repair funds to
PACFLT and other organizations that, in turn, send the funds to the maintenance
activities. The maintenance activities then have the authority to obligate funds on behalf
of PACFLT. The maintenance activities obligate funds in STARS, the official
accounting system used by the DON to record obligations.


Ship Maintenance and Repair Contracts
The PHNSY & IMF, PSNS & IMF, and Southwest RMC use three types of contractual
strategies when contracting with the private sector for ship maintenance and repair
projects: multi-ship/multi-option (MSMO) contracts, indefinite-delivery/indefinite-
quantity (IDIQ) contracts, and basic ordering agreements (BOA). Regardless of the
contract strategy used, the contracts, options, or orders serve as support for the obligation
amount recorded within STARS.


MSMO
MSMO contracts are most commonly used. They are cost-reimbursable contracts
awarded to a prime contractor. NAVSEA awards these contracts for the base year plus
several option years. Ship maintenance and repair activities use the contract for the
repairs to an entire common ship class.3 Each ship maintenance and repair project
represents a contract option, and the contracting officer exercises these options by
creating modifications to the contracts. The activities work with contractors to plan and
execute the work for each option.


IDIQ
IDIQ contracts provide for an indefinite quantity of supplies and services over a fixed
period. The activity awards contracts to contractors over a specified period, and the
activity prepares individual delivery or task orders for goods or services when needed.




2
  Budget authority is the authority that becomes available during the year to enter into obligations that
  result in immediate or future outlays of Government funds.
3
  A ship class is a group of ships of similar design.


                                                      2
BOA
A BOA is a written instrument of understanding that contains terms and clauses applying
to future contracts over a specified period. The agreement includes a specific description
of supplies or services to be provided and methods for pricing, issuing, and delivering
future orders under the BOA.


Contingent Liabilities
Contingent liabilities are a set of circumstances that create the possibility of a future loss.
The circumstance will ultimately be resolved when one or more events occur or fail to
occur. Some contingent liabilities related to ship maintenance and repair contracts
include award fee pools, growth pools, reservation pools, overtime pools, and funds
obligated on miscellaneous documents.


Award Fee Pool
An award fee pool is an amount of funds used as an incentive for the contractor to meet
various performance measures. An award fee board meets biannually or 30 days after the
completion of the work to evaluate contractor performance and decide how much
contractors have earned, based on the contractor’s progress to date. Depending on their
performance level, contractors can receive all or a portion of the award fee pools.


Growth Pool
Growth pools are usually a percentage added to the total value of the contract amount for
anticipated unknown work. Each ship maintenance and repair project consists of
multiple work items or tasks required to complete repair of the ship. According to
maintenance activity personnel, the maintenance activities can use growth pool funds to
complete work related to any work item during a ship maintenance and repair project.


Reservation Pool
The Regional Maintenance Officer memorandum, “Reservation Business Rules,”
November 22, 2006, defines a reservation pool as “known work which cannot be fully
defined in advance.” The reservation pools are work item specific.


Overtime Pool
Overtime pools fund overtime work for any work item completed during the entire ship
maintenance and repair project.




                                               3
Miscellaneous Documents
Miscellaneous Documents are obligation documents used to obligate funds that are not
associated with a specific contract or modification. Funds available at year-end are
obligated to a miscellaneous document. When a need for those funds occurs in the next
fiscal year, funds are deobligated from the miscellaneous document and reobligated to
pay for other contract requirements.




                                          4
Obligation of Funds for Contingent Liabilities
The PHNSY & IMF, PSNS & IMF, and Southwest RMC maintenance activities
inappropriately obligated funds without identifying a specific, definite need for
contingent liabilities on ship maintenance and repair contracts because their business
practices did not comply with established laws and regulations. Because of these
inappropriate obligations, approximately $94.8 million of PACFLT Operation and
Maintenance funds were not available for other ship maintenance and repair needs.

Obligation Process
Each quarter, PACFLT provides ship maintenance and repair budget authority to its
maintenance activities, which allows the activities to commit or obligate funds.
Commitments are the administrative reservation of funds in anticipation of an obligation.
The amount recorded as a commitment is the estimated cost of goods or services.
Obligations are recorded when the Federal Government enters into a legally binding
agreement for the payment of specific goods and services. This can occur when an
agency places an order or signs a contract. A contingent liability should represent a
commitment of funds for the estimated amount of additional obligations that probably
will materialize. The commitment of the contingent liability becomes an obligation once
there is a binding agreement for specific goods and services. Federal laws, DoD
regulations, and DON guidance identifies when to obligate funds and what constitutes an
obligation.


Section 1501, Title 31, United States Code
Section 1501, title 31, United States Code (31 U.S.C. 1501) states that an amount should
only be recorded as an obligation when supported by documentary evidence of an
agreement between an agency and another party. The obligation must be made within the
period of the appropriation’s availability and must be used for specific goods to be
delivered or services to be provided.

Section 1502, Title 31, United States Code
Section 1502, title 31, United States Code (31 U.S.C. 1502) states that the balance of an
appropriation is available to pay expenses incurred during the time the appropriation was
available for obligation. The balance may also be used to complete contracts made
within the time period the appropriation was available for obligation.

DoD Regulation 7000.14R, “DoD Financial Management
Regulation,” Volume 3, Chapter 8, “Standards for Recording and
Reviewing Commitments and Obligations,” November 2000
The DoD Financial Management Regulation (FMR) states that a contingent liability
should be recorded as an obligation when a modification is executed or an adjustment is
made based on the occurrence of an event that determines the amount of the liability. In
addition, the regulation states that when a contract is awarded, an obligation should be


                                            5
recorded for the total estimated cost provided by the contract. For cost-plus-award-fee
contracts, the obligation for the award fee should not be recorded until the fee has been
earned.

Joint Fleet Maintenance Manual, Volume 7, “Contracted Ship
Maintenance”
The Joint Fleet Maintenance Manual (JFMM), volume 7, “Contracted Ship
Maintenance,” states that it is extremely important that unobligated funds be returned to
PACFLT as soon as any excess is identified so funds may be applied to other
requirements before the appropriation expires. If additional funds are required for the
completion of contract changes after the end of the fiscal year, the activities are to request
the funds from PACFLT. Contract modifications that are outside the scope of the
contract are chargeable to funds current at the time the modification is authorized. The
JFMM also states that it is the responsibility of the maintenance team to authorize
contracting officers to commit funds for growth work.4

DON, Navy/Marine Corps Award-Fee Guide, July 2004
The award fee guide states that an amount for a potential award fee should be committed
as a contingent liability prior to the determination that the award fee has been earned.
Obligation of the earned award fee amount occurs after the contractor’s performance is
evaluated and a contract modification has been issued.


Contingent Liability Obligations
During calendar year 2007, the maintenance activities followed established business
practices and obligated funds for several types of contingent liabilities before the
existence of a specific, definite need on ship maintenance and repair contract actions.
These liabilities included funds obligated for award fee pools, growth pools, reservation
pools, overtime pools, and miscellaneous documents. The business practice of obligating
funds for contingent liabilities on ship maintenance and repair contract actions did not
comply with established laws and regulations. Specifically, these business practices
violate 31 U.S.C. 1501, the DoD FMR, the JFMM, and the DON, Navy/Marine Corps
Award-Fee Guide. In addition, the obligation of funds may have violated
31 U.S.C. 1502. The following table provides a breakdown of the type of contingent
liability obligations we found, the number of contract actions that included the contingent
liability type, and the total obligation amount by contingent liability type.




4
    Growth work is any additional work that is identified after contract award or finalization that is related to
    a work item included in the contract award.


                                                         6
                       Obligations for Contingent Liabilities
Contingent Liabilities      Contract Actions             Obligation Amount
Award Fee Pools                         960                       $28,082,998
Growth Pools                            354                        63,463,769
Reservation Pools                         26                          654,865
Overtime Pools                            19                          645,530
Miscellaneous Documents                   12                        1,940,517
Total                                  1,371                      $94,787,679


Award Fee Pools
Contracting officers at the three maintenance activities inappropriately obligated
approximately $28.1 million on 960 MSMO contract modifications for award fee pools
prior to the contractors earning the awards. The obligation of award fee pools violates
the DoD FMR, volume 3, chapter 8, and the DON, Navy/Marine Corps Award-Fee Guide
because contracting officers obligated funds before the contractor earned the award fee.
Maintenance activity personnel believed that funds to pay for the award fee would not be
available when the contractor earned the fee. Therefore, they obligated the award fee
pools in advance. For example, the Southwest RMC contracting officers obligated
approximately $1 million for the award fee pool, on a contract modification awarded for
$10.7 million, prior to the contractor earning the fee. The maintenance activities should
obligate the amount of the award fee earned by contract modification after completion of
the work and after the award fee official determines the amount earned.

Growth Pools
Contracting officers at the three maintenance activities inappropriately obligated
approximately $63.5 million on 341 MSMO contract modifications and 13 IDIQ orders
for growth pools. The obligation of growth pools violates 31 U.S.C. 1501, DoD FMR,
volume 3, chapter 8, and the JFMM because the maintenance activities did not identify
the specific work at the time of the obligation. Maintenance activities obligated funds
without a sufficient description of the specific products or services needed to support the
growth pool amounts. For example, a Business Clearance Memorandum supporting one
contract modification stated:

                     Funding put against this WI [work item] becomes a contract obligated
                     pool reservation for undefinitized growth work that is encountered
                     during the availability5. . . The ACO [Administrative Contracting
                     Officer] backed into this dollar amount after definitization of all other
                     TYCOM [Type Commander] funded WIs. The ACO determined
                     amount for this growth pool reservation is $401,594.




5
    An availability is the period of time a ship is assigned to undergo maintenance or repair by a repair
    activity.


                                                        7
In addition, the obligation of funds may violate 31 U.S.C. 1502 because the obligation is
for anticipated needs that may occur after the appropriation expires. For example, on
September 26, 2007, PSNS & IMF contracting officers obligated approximately
$3.8 million in a growth pool prior to the identification of the work 5 days before the
funds would have expired. According to maintenance activity officials, historical data
covering repairs made to an entire common class of ship supported the growth pool
amounts. We did not find evidence of the historical data in the contract files that would
support the growth pool amounts. The maintenance activities should obligate funds by
contract modification for growth work, only at the time of identification of the work, with
contracting officer approval of the work, and with a negotiated price for the work.

Reservation Pools
Contracting officers at the PHNSY & IMF and the Southwest RMC maintenance
activities inappropriately obligated approximately $655,000 on 19 MSMO contract
modifications and 7 IDIQ orders for reservation pools. The obligation of funds for
reservation pools violates 31 U.S.C. 1501 and the DoD FMR, volume 3, chapter 8,
because the work is not specific or fully defined, but merely anticipated at the time the
funds are obligated. In addition, the obligation of funds may violate 31 U.S.C. 1502
because the obligation is for anticipated needs that may occur after the appropriation
expires. The maintenance activities obligated funds for reservation pools so funds would
be available when the work became necessary. The following is an example from a
contract modification of a reservation pool for one work item:
                   Provide 20 mandays [sic] of labor and $20,000 of material to
                   accomplish electrical repairs not previously identified in this work
                   item, when directed by the SUPERVISOR. Total cost greater or less
                   than above manday [sic] and dollar amounts when authorized will be
                   subject to an equitable adjustment.

At the conclusion of our prior audit,6 DON officials stated that each maintenance activity
used historical evidence to support cost estimates for reservation pools. We did not find
evidence to support the historical averages in the contract modification or contract file for
the estimated labor and materials used for the reservation pools. Officials also stated that
the maintenance activities used historical evidence maintained in the Naval Maintenance
Database (NMD) to plan and execute ship maintenance and repair projects. Both the
Government (maintenance teams and contracting officers) and contractors access NMD
to manage and execute maintenance work items. While some historical data existed in
NMD, the system did not have the ability to collect or present the data to support the use
of the reservation pools in accordance with guidance set forth in the Regional
Maintenance Officer memorandum, “Reservation Business Rules,” November 22, 2006.

Although reservation pool amounts were associated with specific work items, the
reservation amounts were for work that may or may not occur. The maintenance
activities should obligate funds for reservation work by contract modification at the time
6
    DoD Inspector General Report No. D-2008-083, “Obligation of Funds for Ship Maintenance and Repair
    at the U.S. Fleet Forces Command Regional Maintenance Centers,” April 25, 2008.



                                                    8
of identification of the work, with contracting officer approval of the work, and with a
negotiated price for the work.

Overtime Pools
Southwest RMC contracting officers inappropriately obligated approximately $646,000
on 19 MSMO contract modifications for overtime pools related to anticipated overtime
work. The obligation of funds for overtime pools violates 31 U.S.C. 1501 and the DoD
FMR, volume 3, chapter 8, because the obligations were not work item specific. In
addition, the obligation of funds may violate 31 U.S.C. 1502 because the obligation is for
anticipated work that may or may not be necessary. The Southwest RMC obligated funds
for overtime pools based on the overall cost of the ship maintenance and repair project in
order to ensure that funds would be available if the need for overtime work arose. For
example, contracting officials awarded and obligated approximately $333,000 for an
overtime pool for one contract modification before identifying a need for the overtime
work. The contract files for the contract modifications reviewed did not contain support
for the estimated overtime pool. In addition, the overtime pool funds were not always
associated with a specific work item. The Southwest RMC should obligate funds for
overtime work by contract modification upon identification of need for the work and with
contracting officer approval.

Miscellaneous Documents
In September 2007, a finance official at PHNSY & IMF inappropriately obligated
approximately $1.9 million of FY 2007 funds on 12 miscellaneous documents for
anticipated needs during the next fiscal year on existing contracts. The obligation of
funds at fiscal year-end on miscellaneous documents in anticipation of a specific, definite
need violates 31 U.S.C. 1501; JFMM, volume 7; and the DoD FMR, volume 3, chapter 8.
In addition, the obligation of funds may violate 31 U.S.C. 1502 because the obligation is
for anticipated needs that most likely will occur after the appropriation has expired.
PHNSY & IMF used miscellaneous documents to obligate funds that were not associated
with a specific contract or modification. According to the PHNSY & IMF finance
official, management instructed the finance official to obligate the funds and he elected to
obligate these funds to miscellaneous documents. Obligating the funds to the
miscellaneous documents allowed PHNSY & IMF to use FY 2007 funds in the next fiscal
year for within scope-growth on existing contracts. In FY 2008, FY 2007 funds were
deobligated from 9 of the 12 miscellaneous documents. Of 12 miscellaneous documents,
4 had a combined remaining balance of approximately $223,000. A remaining balance is
an indication that there was no immediate need for the funds when they were obligated.

The JFMM requires organizations to return funds not obligated at year-end to PACFLT.
In addition, the JFMM requires approval from PACFLT or a higher office for upward
obligations. By obligating funds to miscellaneous documents, PHNSY & IMF did not
have to return those funds to PACFLT at year-end and did not obtain approval for
upward obligations in FY 2008 as required by the JFMM. The Commander, PACFLT
should establish guidance to match the JFMM and require the maintenance activities to
return unobligated funds at year-end to COMPACFLT.



                                             9
Conclusion
The three U.S.-based PACFLT maintenance activities have inappropriately obligated
approximately $94.8 million of ship maintenance and repair funds for contingent
liabilities, making them unavailable for other ship maintenance and repair needs. We did
not find any instances where maintenance activities obligated funds for anything other
than ship maintenance and repair projects. However, by inappropriately obligating funds
for contingent liabilities, PACFLT and the DON received an inaccurate representation of
available funds. As a result, PACFLT and the DON were unable to make informed
decisions on ship maintenance and repair priorities. The DON needs to issue guidance
prohibiting the obligation of funds for contingent liabilities to ensure that the proper
procedures are implemented in accordance with established laws and regulations. In
addition, as the agency responsible for programming and budgeting resources, PACFLT
should prohibit the practice of obligating funds for all contingent liabilities for which
they are the responsible command.

Client Actions
In DoD Inspector General Report No. D-2008-083, “Obligation of Funds for Ship
Maintenance and Repair at the U.S, Fleet Forces Command Regional Maintenance
Centers,” April 25, 2008, the Assistant Secretary of the Navy (Financial Management and
Comptroller) agreed with our recommendations that U.S. Fleet Forces Command
maintenance activities should stop the business practice of obligating funds for
contingent liabilities related to award fees, growth pools, reservation pools, overtime
pools, and miscellaneous documents. Similarly, during the audit, PACFLT officials
agreed with our conclusions and initiated actions to discontinue the business practices of
obligating funds for contingent liabilities at PACFLT maintenance activities for award
fee pools, growth pools, reservation pools, and overtime pools. In addition, PACFLT
officials indicated that they had deobligated the inappropriately obligated funds on
current contracts.

Client Comments on the Finding and Our Response
The Assistant Secretary of the Navy (Financial Management and Comptroller) and the
Commander, U.S. Pacific Fleet provided comments on the finding. For the full text of
the Assistant Secretary of the Navy (Financial Management and Comptroller) and the
Commander, U.S. Pacific Fleet comments, see the Clients Comments section of the
report.

Client Comments
The Assistant Secretary of the Navy and the Commander, U.S. Pacific Fleet agreed with
the finding concerning the recording of obligations of funds for contingent liabilities
including award fee pools, growth pools, reservation pools, premium pools, and
miscellaneous documents.

Our Response
We appreciate the comments on the finding from the Assistant Secretary of the Navy
(Financial Management and Comptroller) and the Commander, U.S. Pacific Fleet.


                                           10
Recommendations, Client Comments, and Our
Response
1. We recommend that the Assistant Secretary of the Navy (Financial Management
and Comptroller):

         a. Issue guidance and implement a plan to monitor the obligation of funds at
all ship maintenance and repair activities to ensure that the business practices of
obligating funds up-front for award fees, growth pools, reservation pools, and
overtime pools for ship maintenance and repair contracts are discontinued and that
amounts for these items are deobligated on current contracts.

Assistant Secretary of the Navy Comments
The Assistant Secretary of the Navy (Financial Management and Comptroller) agreed
and stated that fiscal policy has been issued addressing award fees, growth pools,
reservation pools, and overtime pools for ship maintenance contracts. He also stated that
his office would immediately task the U.S. Pacific Fleet and U.S. Fleet Forces Command
to implement procedures to monitor ship maintenance and repair obligations. He
indicated that Fleet guidance would be developed and implemented by December 15,
2008.

Our Response
The Assistant Secretary of the Navy (Financial Management and Comptroller) comments
were responsive and conform to requirements; no additional comments are needed.

Commander, U.S. Pacific Fleet Comments
Although not required to comment, the Commander, U.S. Pacific Fleet stated that his
office issued guidance to U.S. Pacific Fleet maintenance activities requiring them to
return funds at year-end on over-obligated contracts and prohibiting the practice of
obligating funds for contingent liabilities. He also stated that his office established an
assessable unit titled “Ship Maintenance and Repair Program Management” to validate
program integrity and strengthen internal management controls.

Our Response
We appreciate the comments from the Commander, U.S. Pacific Fleet and commend his
office for the actions taken.

        b. Issue guidance and implement a plan at all ship maintenance and repair
activities to monitor the obligation of funds at year-end on miscellaneous documents
to ensure that only funds for specific, definite needs are obligated and amounts for
these items are deobligated on current miscellaneous documents.

Assistant Secretary of the Navy Comments
The Assistant Secretary of the Navy (Financial Management and Comptroller) agreed
and stated that his office will immediately task the U.S. Pacific Fleet and U.S. Fleet
Forces Command to implement procedures to monitor ship maintenance and repair


                                             11
obligations, including the return of year-end unobligated funds. He indicated that Fleet
guidance would be developed and implemented by December 15, 2008.

Our Response
The Assistant Secretary of the Navy (Financial Management and Comptroller) comments
were responsive and conform to requirements; no additional comments are needed.

Commander, U.S. Pacific Fleet Comments
Although not required to comment, the Commander, U.S. Pacific Fleet stated that his
office issued guidance to PACFLT maintenance activities directing them to return
funds at year end on current contracts that are over-obligated and that obligation of
year-end funds on miscellaneous documents are now monitored to ensure compliance
with sections 1501-1502, title 31, United States Code.

Our Response
We appreciate the comments from the Commander, U.S. Pacific Fleet and commend his
office for the actions taken.

      2. We recommend that the Commander, U.S. Pacific Fleet establish
guidance that requires its activities to return unobligated Operation and
Maintenance funds at year-end in accordance with the Joint Fleet Maintenance
Manual.

Commander, U.S. Pacific Fleet Comments
 The Commander, U.S. Pacific Fleet agreed and stated that his office has issued guidance
to the PACFLT maintenance activities to return funds at year-end on current contracts
that are over-obligated.

Our Response
The Commander, U.S. Pacific Fleet comments were responsive and conform to
requirements; no additional comments are needed.




                                            12
Appendix A. Scope and Methodology
We conducted this performance audit from January 2008 through June 2008 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our finding and
conclusions, based on our audit objective.

We limited our review of the obligation of funds for ship maintenance and repair to
PACFLT maintenance activities. We limited our review because of the large number of
ship maintenance activities, as well as the potential that the Commander, U.S. Fleet Force
Command and the Commander, PACFLT activities operate differently. Our first report
reviewed the U.S. Fleet Forces Command RMCs. This report is the second in a series
that addresses the obligation of funds for ship maintenance and repair contracts.

To review the obligation of funds for ship maintenance and repair at PACFLT
maintenance activities, we determined that the primary type of funds used by the
maintenance activities is Operation and Maintenance. We then limited the scope of our
review to funds obligated by PACFLT maintenance activities for private contracting in
calendar year 2007. We limited our scope because of the high dollar value, volume of
transactions, and number of contract actions awarded for cost-reimbursable contracts at
the maintenance activities. Maintenance activities used three types of contractual
strategies to award Operation and Maintenance funds: MSMO contracts, IDIQ contracts,
and BOAs. We reviewed all of the MSMO contract modifications and a judgmental
sample of IDIQ and BOA orders at the three maintenance activities for calendar
year 2007.

To accomplish the audit objectives, we met with the following offices and reviewed the
following data.

       •       We met with representatives from the Offices of the Commander,
               PACFLT, PHNSY & IMF, PSNS & IMF, and Southwest RMC.

       •       We reviewed funding documentation and budgetary reports to determine
               whether the amounts obligated for ship maintenance and repair contracts,
               modifications, and orders were fully supported by defined work.

       •       We reviewed applicable laws and regulations, including 31 U.S.C 1501;
               31 U.S.C. 1502; the DoD FMR; the JFMM; and the DON, Navy/Marine
               Corps Award Fee Guide. These laws and regulations were reviewed to
               determine when obligations for ship maintenance and repair should be
               recorded and for what amount.

       •       We reviewed the contracting files supporting 1,730 MSMO modifications,
               327 IDIQ orders, and 30 BOAs for ship maintenance and repair, valued at



                                           13
                over $425.6 million. The table provides a breakdown of modifications
                and orders reviewed at each maintenance activity.

                              Modifications and Orders Reviewed
Maintenance     MSMO                           IDIQ       Award         BOA          Award
 Activity     Modifications   Award Amount     Orders     Amount        Orders       Amount

PHNSY &
                       222       $37,808,439        10    $10,623,952            0            0
IMF

PSNS &
                       259        62,635,104        14      6,958,840            0            0
IMF

SWRMC                1,249       274,730,565        303    30,534,631        30      $2,287,800

   Total              1730      $375,174,108        327   $48,117,423        30      $2,287,800



Review of Internal Controls
We identified a material internal control weakness as defined by DoD Instruction
5010.40, “Managers’ Internal Control (MIC) Program Procedures,” January 4, 2006.
Specifically, existing DON guidance does not prohibit the obligation of funds without a
specific, definite need on ship maintenance and repair contracts. If implemented, the
recommendations in this report will correct this weakness. We will provide a copy of this
report to the senior Naval official responsible for internal controls in the Department of
the Navy.

Client Comments. The Assistant Secretary of the Navy (Financial Management and
Comptroller) and the Commander, U.S. Pacific Fleet agreed with our assessment of this
internal control weakness and expect that the actions taken to date and their planned
actions will correct the weakness.

Our Response. We commend the Assistant Secretary of the Navy (Financial
Management and Comptroller) and the Commander, U.S. Pacific Fleet’s actions taken to
date. We agree that these and the planned actions will correct the weakness.

Use of Computer-Processed Data
We did not evaluate the general and application controls related to the STARS, which track
amounts spent by individual maintenance activities for ship maintenance and repair. The
audit results were not affected by not evaluating the controls. We did validate the reliability
of STARS data used to support our review by comparing the STARS data to contract actions.
This data was determined to be accurate and valid for the purpose of this audit.




                                               14
Prior Coverage
During the last 5 years, the Department of Defense Inspector General (DoD IG), the
Government Accountability Office (GAO), and Congressional Budget Office (CBO)
have issued three reports discussing topics related to the obligation of funds for ship
maintenance and repair. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports. Unrestricted GAO reports can be accessed at
http://www.gao.gov. Unrestricted CBO reports can be accessed at http://www.cbo.gov.

DoD IG
DoD IG Report No. D-2008-083, “Obligation of Funds for Ship Maintenance and Repair
at the U.S. Fleet Forces Command Regional Maintenance Centers,” April 25, 2008

GAO
GAO Report No. 03-275, “Improved Reviews Needed to Ensure Better Management of
Obligated Funds,” January 2003

CBO
CBO Review, “Review of Proposed Congressional Budget Exhibits for the Navy’s
Mission-Funded Shipyards,” April 14, 2006




                                           15
Assistant Secretary of the Navy (Financial Managment and
Comptroller) Comments




                   Click to add JPEG file




                                  17
Click to add JPEG file




               18
Commander, U.S. Pacific Fleet Comments




                  Click to add JPEG file




                                 19
                           Final Report
                            Reference




Click to add JPEG file   Revised




               20
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Business Operations prepared this report. Personnel of the Department of
Defense Office of Inspector General who contributed to the report are listed below.

Patricia A. Marsh
Kenneth B. VanHove
Carrie A. Wade
Christopher A. DePerro
Shelly M. Farber
Randall M. Critchlow
Daniel D. Carlquist
Sarah M. Beckwith
Annette D. Brown
Erin S.-E. Hart
